                                                     U.S. Department of Justice

                                                     Michael J. Sullivan
                                                     United States Attorney
                                                     District of Massachusetts

                                                     John Joseph Moakley United States Courthouse, Suite 9200
Press Office: (617) 748-3139
                                                     1 Courthouse Way
                                                     Boston, Massachusetts 02210
                                                     May 19, 2004

                                        PRESS RELEASE

              FEDERAL JURY CONVICTS LOGAN AIR TRAFFIC CONTROLLER
                             FOR LYING ABOUT OUIS

        Boston, MA... A Logan air traffic controller was convicted today in federal court of five
counts of making false statements about his previous operating under the influence convictions
on a form he was required to submit each year to the Federal Aviation Administration to remain
certified for his job.

       United States Attorney Michael J. Sullivan and Theodore L. Doherty, Special Agent in
Charge of the U.S. Department of Transportation, Office of the Inspector General in New
England, announced today that RONALD MYLES HATCH, II, age 49, of Lynnfield, was
convicted by a jury sitting before U.S. District Judge Rya W. Zobel of five counts of using a false
document knowing it to contain a false statement.

        Evidence presented during the three-day trial proved that each year from 1999 through
2003, HATCH made false statements on his annual Federal Aviation Administration medical
certification form by stating that there was no change in his conviction history for driving while
under the influence. In fact, HATCH had been convicted on two occasions for driving while
under the influence, in May of 1983 and July 1995, that he had not disclosed to the FAA.

      There was no evidence presented during the trial that HATCH was impaired while
working as an air traffic controller.

        Judge Zobel scheduled sentencing for August 11, 2004. HATCH faces up to 5 years’
imprisonment, to be followed by 3 years of supervised release, and a $250,000 fine on each of
the five counts.

       The case was investigated by the U.S. Department of Transportation’s Office of the
Inspector General with assistance from the Federal Aviation Administration. It is being
prosecuted by Assistant U.S. Attorney Sandra S. Bower in Sullivan’s Major Crimes Unit.

Press Contact: Samantha Martin, (617) 748-3139
